United States v. Khweis, Slip Copy (2017)

2017 WL 2385355
Only the Westlaw citation is currently available.
United States District Court,
E.D. Virginia,
Alexandria Division.
UNITED STATES of America,
v.
Mohamad Jamal KHWEIS, Defendant.
Criminal Action No. 1:16–cr–143
|
Signed 06/01/2017
Attorneys and Law Firms
Dennis Fitzpatrick, Raj Parekh, United States Attorney's
Office, Alexandria, VA, for United States of America.
Christopher Leibig, The Law Office of Christopher Leibig
LLC, John Kenneth Zwerling, Cary Jacob Citronberg, Law
Offices of John Zwerling, Alexandria, VA, for Mohamad
Jamal Khweis.

MEMORANDUM OPINION

I. Background
The Court makes the following factual findings relevant to the
Motion.1

The Defendant, Mohamad Jamal Khweis, is a twenty-seven
year old United States citizen. Prior to the events set forth
below, Defendant was a resident of the state of Virginia.

In December 2015, Defendant sold a number of his
belongings and purchased a one-way ticket to London, United
Kingdom. After spending a few days in London, Defendant
traveled to the Netherlands, and from there to Turkey. After
traveling in Turkey for a few days, Defendant crossed the
Syrian border and ultimately traveled to Iraq. Three months
after entering Syria, on March 14, 2016, Defendant was
captured by Kurdish Peshmerga fighters near Sinjar Mountain
in a Kurdish-controlled region of Iraq near the Syrian border.
Following his capture by the Peshmerga, Defendant was
transported to a Kurdish Counter–Terrorism Directorate
(“CTD”) detention center in Erbil, Iraq. The same day that
Defendant was detained by the Peshmerga, Department of
Defense employees learned that the Peshmerga had captured
an American citizen and that the CTD would provide detailed
information on the detainee the following day. The Federal
Bureau of Investigations (“FBI”) Assistant Legal Attaché for
Iraq, Michael Connelly, learned about Defendant's detention
the same day.2

Liam O'Grady, United States District Judge

*1 This matter comes before the Court on the Defendant's
Motion to Suppress. (Dkt. No. 105). A hearing was held in
this matter on April 12–13, 2017. Defendant seeks to suppress
statements made to United States agents while Defendant was
detained in a Kurdish prison in Erbil, Iraq on the grounds
that: (1) Defendant was not promptly presented to a United
States Magistrate Judge; (2) his statements were the product
of Government coercion; (3) his statements were obtained in
violation of the his right against self-incrimination and right
to counsel. Defendant also seeks to suppress the search of his
cellular phones during the detention. For the reasons set forth
below, the Court DENIES Defendant's Motion.

*2 The following day, March 15, 2016, United States
Department of State Consular Officer Mark Jasonides visited
Defendant. Jasonides inquired as to Defendant's well-being
and provided Defendant with a fact sheet pertaining to his
rights under the Iraqi legal system. The fact sheet advised
among other things that, “[i]n Iraq, the usual expectations of
presumption of innocence, the right to remain silent, and
proof of criminal activity ‘beyond a reasonable doubt’ do not
apply.” Gov. Exh. 36. It also detailed that “[b]efore charges
are filed, your period of detention depends on the maximum
possible sentence for the crime. In any event, it should not
exceed 6 months—but there are instances in which this has
occurred.” Id. Elsewhere the fact sheet advised that “the
reality is that the detention can be open-ended and people can
be detained up to a year without trial.”Id. In conjunction with
the fact sheet, Jasonides provided Defendant with a list of
lawyers who practice in the Kurdistan region of Iraq.
Jasonides also presented Defendant with a Privacy Act

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Khweis, Slip Copy (2017)

waiver. The Privacy Act waiver permitted the State
Department to communicate with Defendant's family, friends,
attorney (if retained), members of the media, his employer,
and any other individuals he identifies. The Defendant signed
the Privacy Act waiver and added only his parents to the
waiver during the March 15, 2016 visit. Jasonides observed
that Defendant was stressed and complained of
gastrointestinal distress but was otherwise in good health.

The same day, Connelly visited the CTD detention center to
interview Defendant. Connelly testified that a presiding
Kurdish general initially refused the FBI's request to access
Defendant and the electronic devices he was carrying when
arrested. The Kurdish general was disappointed by the
Government's failure to provide military intelligence obtained
from an earlier ISIS detainee held by the United States.
Ultimately, the Kurdish general permitted Connelly to
interview Defendant for one hour and to make copies of the
contents of his electronic devices. The interview occurred in
an office in the detention facility and was attended by State
Department Regional Security Officer Eric Song, State
Department Cultural Liaison Ahmed Wali, and Kurdish CTD
Official #1.3 Defendant was not handcuffed during the
interview and was brought into and out of the interview room
by Kurdish authorities.

Connelly testified that because his access to Defendant might
be limited, he made the decision with his supervisors to
interrogate Defendant for intelligence purposes without
providing him Miranda warnings. Connelly acknowledged
that this approach might jeopardize any future United States
criminal prosecution, but Connelly believed that Defendant
could provide valuable intelligence about ISIS facilitation
networks, organizational structure, and fighters.

Following the initial one-hour interview, Connelly asked the
Kurds for permission to continue interviewing Defendant.
This request was granted. Connelly later noted in an email to
other FBI agents “the difficulties that existed initially” but
concluded that “[w]e now have unlimited access [to
Defendant] and [CTD] welcome us there any day or night
since we are collaborating with them. Sharing information
with them going forward on [Defendant] is critical to
success.” Gov. Exh. 64.

Connelly conducted ten additional interviews over the next
month. A second interview occurred on March 15 followed
by interviews on March, 17, 18–19, 20, 23, 26, 31 and April
7 and 10. Connelly testified that Kurdish officials periodically
prevented him from accessing Defendant, which resulted in

the breaks in the interview schedule. The Kurdish authorities
brought Defendant to and from each meeting without
restraints. Connelly did not collect booking photos,
fingerprints, or DNA samples from Defendant directly or
from the Kurdish authorities. Connelly testified that on at
least one occasion, CTD Official #1 ended the interview
early. All of the interviews were conducted at the CTD
detention center in Erbil and were attended by Connelly, CTD
Official #1, and RSO Song. The meetings were occasionally
attended by Department of Defense officials. None of the
participants were visibly armed. Defendant was not shackled
during the interviews and the Government provided
Defendant soft drinks, snacks, and cigarettes. Connelly
testified that no interview lasted more than half a day and
Defendant was given the option to take breaks when he
needed.

*3 The Government did not advise Defendant of his Miranda
rights before any of these interviews. Electronic
communications between Connelly and another FBI employee
on March 22, 2016 indicate that the FBI asked 99% of the
questions during the interviews. The FBI and the CTD shared
information obtained during the interviews and the FBI asked
questions of Defendant at the behest of the Kurdish
authorities. Connelly testified that Defendant repeatedly
admitted to not being fully truthful at various stages of the
interviews, resulting in a “reset” of the interview process.
Over the course of the interviews, Defendant described his
efforts to join ISIS, identified other ISIS members he
encountered while in the organization, and explained his
understanding of the ISIS operations in the region. The
Government does not seek to admit the statements made
during these interviews in their case-in-chief.

During Connelly's interviews, Defendant asked whether he
would be charged and extradited to the United States.
Defendant expressed a desire to return to the United States for
prosecution rather than remain in the Kurdish or Iraqi justice
system. Connelly advised Defendant during a number of the
interviews that no promises could be made by the FBI about
prosecutions because those decisions could only be made by
the United States Department of Justice and the United States
courts. Connelly told Defendant that the charging process was
dependent on the FBI's evaluation of the evidence. Connelly
also advised Defendant that his story had to be consistently
truthful in order for investigators to determine if a crime had
been committed.

While the interviews were ongoing, Connelly and other
intelligence agents discussed Defendant's cooperation in
emails. On March 22, 2016, Connelly described the

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Khweis, Slip Copy (2017)

interviews as “a textbook case of getting a guy from a
complete lie to a confession ... he will not let me down[.]”
Gov. Exh. 58. In an email on March 26, 2016, Connelly
stated that Defendant “is now very comfortable talking about
everything ... [h]e wants to cooperate fully with the US.” Def.
Exh. A. Connelly also “told him again today that a decision
has not been made whether to charge and/or extradite him.”
Id. Connelly explained that “[t]his was time very well spent
because the extensive time we took getting him comfortable
with telling the truth will make it far easier for subsequent
interviews here and in the US.” Def. Exh. A. In a March 31,
2016 email, a Department of Defense employee informed
Connelly that the Department would attend the upcoming
interview, did not have any specific inquiries to discuss, but
opined that a final session of familiar faces would keep
Defendant's story consistent. On April 7, 2016, Connelly
reported to other FBI agents that during the most recent
interview “[Defendant] would not stop talking in an attempt
to fill in gaps he previously created. He is going to be very
easy to deal with from a clean team perspective.” Gov. Exh.
41. Finally, on April 8, 2016, shortly before the culmination
of his interviews, Connelly commented to other intelligence
agents via email that “[Defendant] is lined up perfectly for the
clean team.” Gov. Exh. 60. Connelly's interviews ended on
April 10, 2016 and neither he nor any other Government
officials involved in those interviews contacted Defendant
after that date.

CTD Official #1 testified that his office conducted its own
investigation at the same time as the United States interviews.
Pursuant to Kurdish law, CTD Official #1 contacted an
investigative court as soon as Defendant arrived at the CTD
detention center to authorize Defendant's detention on alleged
violations of Iraqi and Kurdish law.4 The investigative court
provided authorization for detention. CTD Official #1
testified that on March 27, he presented Defendant to the
investigative court, at which point Defendant was advised of
his right to an attorney, which he declined. CTD Official #1
testified that he could not provide any documentation of the
court visit or the full name of the presiding judge because this
information was protected under the law. The investigative
court subsequently re-authorized Defendant's continued
detention. CTD Official #1 testified that the detention
authorization had to be renewed approximately every fifteen
days and that renewals were obtained for the duration of
Defendant's time in the CTD detention center.

*4 As Connelly's interviews were coming to a close, on April
7, 2016, he advised other agents via email that he was
receiving pressure from the Kurds to “get the clean team
piece working.” Gov. Exh. 41. Connelly expressed concern
that if Defendant was transferred from CTD custody to the

Kurdish court system, the FBI's ability to communicate with
him would be extremely difficult. See id. The next day,
Connelly followed up that a Kurdish Judge may order the
CTD to “produce [Defendant] in court and then we are
screwed.” Gov. Exh. 60. Connelly advised that “The [FBI]
needs to interview him with a clean team ASAP, complaint
him immediately, extradite him, follow up with all the ...
[further inquiries] in the US, and stop the Kurds from having
to do what they legally have to do” by prosecuting him. Id.
Connelly indicated in the same email that the “[FBI] will not
commit to charging him” at this point. Id.

During this same time period, Defendant's parents sought
legal representation for their son. On April 7, 2016 they
retained John Zwerling, present defense counsel, for
Defendant. Because Mr. Zwerling was not listed on
Defendant's Privacy Act waiver (signed on March 15, 2016),
the State Department was initially unable to give Mr.
Zhwerling any information about the location or status of his
client. The State Department Consular Office scheduled to
meet with Defendant on April 18, 2016 but was told by
United States law enforcement that CTD official #1 objected
that the proposed visit date was not good for the Kurds. The
Consular Office responded that Saturday or Sunday of that
week would be fine too. The State Department Consular
Office ultimately visited with Defendant on April 23, 2016 at
which point Mr. Zhwerling was added to Defendant's Privacy
Act waiver. Two days later, Mr. Zhwerling was contacted by
the State Department regarding Defendant's location.

On April 20, 2016, FBI Special Agents Victoria Martinez and
Brian Czekala and a Kurdish translator met with Defendant.
This interview was conducted in a different interrogation
room in the CTD Erbil detention center than Connelly's
interviews and none of the Kurdish officials present at
Connelly's interviews participated. The agents advised
Defendant of his Miranda rights orally and in writing before
the interview. The advice of rights form stated that “[y]ou do
not need to speak with us today just because you have spoken
with others in the past.” Gov. Exh. 53. Agent Martinez
testified that Defendant was further advised that his family
had retained counsel in the United States on his behalf. 5 The
Defendant waived his Miranda rights before the interview
orally and in writing. Defendant also consented to the search
of his cellphones and other electronic equipment. Gov. Exh.
49. Agents Martinez and Czekala conducted two further
interviews on April 21 and 23. The agents advised Defendant
of his rights before each interview and Defendant again
waived his rights orally and in writing. The Defendant made
a number of inculpatory statements during these interviews
which the Government seeks to admit as evidence in its
case-in-chief.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Khweis, Slip Copy (2017)

flight, Defendant reinitiated conversation with the agents.
The same day that the Mirandized interviews began, Connelly
commented to another FBI employee via electronic
messaging that he “really tee'd [Defendant] up for these guys
i think... that is the intel guys job. obliterate all his lies and get
him comfortable with the truth.” (grammar and spelling
original). Gov. Exh. 59. However, the agents had no access to
any information obtained during Connelly's interviews.
Connelly testified that his only interaction with the Martinez
and Czekala was assisting them with logistics into and out of
Erbil.

*5 Following further status requests from the Kurdish
authorities during the Mirandized interviews, counsel for the
Government provided a letter to a general in the Kurdistan
Regional Government Security Council dated April 28, 2016.
Gov. Exh. 72. The letter explained that the United States
anticipated filing terrorism-related and possibly other charges
within the next two weeks. The same day, Connelly informed
Government counsel that he provided the letter to the chief of
staff of the general and CTD agreed to provide any assistance
required. Gov. Exh. 69. Connelly reported that he was careful
not to request Defendant's detention solely on the United
States' behalf but only if Kurdish law permitted it. Connelly
stated in the email that he received assurances that continued
detention prior to transfer to the court was permissible under
the law. Connelly added that the Chancellor of the Kurdistan
Regional Government Security Council endorsed the
continued detention but impressed upon Connelly that after
two more weeks the Kurdish investigation would be complete
and transfer to Kurdish court would be likely.

On May 11, 2016, the Government filed a sealed Complaint
against Defendant in the Eastern District of Virginia.
Consular Officers met with Defendant to assist him in
completing an application for a new passport because he no
longer possessed the one he had used to leave the United
States. The application was completed on May 19, 2016.
Owing to delays in obtaining visas for the pilots who would
transport Defendant out of Erbil, Defendant was not formally
handed over to United States custody until June 8, 2016.
During the flight back to the United States on June 8,
Defendant initiated conversation with Agent Martinez and
another FBI agent on board. The agents apprised Defendant
of his Miranda rights and the advice of rights form orally and
in writing. Defendant waived those rights and spoke with the
agents. During this conversation, Defendant made a number
of inculpatory statements which the Government seeks to
admit as evidence in its case-in-chief. At some point during
the conversation, Defendant invoked his right to remain silent.
At this point, the agents ceased questioning. Later during the

Defendant was subsequently arraigned in this Court.
Following discovery, Defendant filed the present Motion to
suppress his Mirandized statements and the searches of his
phones.

II. Legal Standard
The burden of proof in a motion to suppress is on the party
who seeks to suppress the evidence. United States v.
Dickerson, 655 F.2d 559, 561 (4th Cir. 1981). Once the
defendant establishes a basis for the motion, the government
bears the burden of proving the admissibility of the
challenged evidence by a preponderance of the evidence.
United States v. Matlock, 415 U.S. 164, 177 n. 14 (1974).

III. Discussion
The Defendant has advanced four grounds for suppression of
some or all of his statements and the fruits thereof. First, the
Government unreasonably withheld Defendant's presentment
before a magistrate judge in order to elicit a confession.
Second, Defendant's confessions were the involuntary product
of Government coercion. Third, the Government violated
Defendant's right against self-incrimination by intentionally
circumventing the Miranda warnings with a two-stage
interrogation process. Fourth, Defendant's right to remain
silent and right to counsel were violated during the June 8
interview on the flight back to the United States. The
memorandum addresses each of these grounds in turn.

A. Presentment Violation
Rule 5 of the Federal Rules of Criminal Procedure requires
that “[a] person making an arrest outside the United States
must take the defendant without unnecessary delay before a
magistrate judge, unless a statute provides otherwise.” Fed. R.
Crim. P. 5(a)(1)(B). “[A] confession must be suppressed if (1)
it was made prior to the arrestee's presentment to a magistrate
judge; (2) the presentment to a magistrate judge was
unreasonably or unnecessarily delayed; and (3) the confession

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Khweis, Slip Copy (2017)

was made more than six hours after the arrest or detention.”
United States v. Claridy, 601 F.3d 276, 284–85 (4th Cir.
2010); see also 18 U.S.C. § 3501(c). This exclusionary rule
applies even if the confession is voluntary. McNabb v. United
States, 318 U.S. 332, 345 (1943); Mallory v. United States,
354 U.S. 449, 455 (1957). But the six hour time limitation
does not apply if the delay is found by the trial judge to be
reasonable considering the means of transportation and the
distance to be traveled to the nearest available magistrate
judge or other officer. 18 U.S.C. § 3501(c).

*6 Critically, the “prompt presentment guarantee applies only
to actions undertaken by domestic authorities.” United States
v. Abu Ali, 528 F.3d 210, 226 (4th Cir. 2008). Stated another
way, the “duty to present a person to a federal magistrate does
not arise until the person has been arrested for a federal
offense.” United States v. Alvarez–Sanchez, 511 U.S. 350,
358 (1994).

In this case, Defendant was not charged with a federal offense
until May 11, 2016. Dkt. No. 1. Prior to May 11, 2016, the
Government had not determined whether charges would be
brought. This hesitation was no secret to the Kurdistan
Regional Government or Defendant. Agent Connelly noted in
an April 8, 2016 email to other FBI agents involved in the
intelligence-gathering efforts that no charging decision had
been made. Gov. Exh. 60. Agent Connelly repeatedly advised
the Kurdish authorities that the United States had not made a
charging determination. See, e.g., Gov. Exh. 41 (“I told [the
Kurdish official] we can't make any decisions on charging
until our clean team comes in.”). Department of Justice
attorney Raj Parekh subsequently wrote a letter to a general
in the Kurdistan Region Security Council on April 28, 2016
advising that the United States “anticipated filing
terrorism-related and possibly other charges within the next
two weeks.” Gov. Exh. 70. Agent Connelly also repeatedly
advised Defendant during his interviews that no charging
decision had been made. Hearing Tr. 363:18–365:6.

Defendant was not formally handed over from Kurdish to
United States custody until June 8, 2016. See Gov. Exh. 28A,
B.6 Agent Connelly attributed the month-long delay between
charging and extradition to logistics challenges. These
challenges are reasonable in light of the evidence that
Defendant needed a new passport in order to complete
extradition, all of the agents participating in the extradition
were required to obtain visas to enter Iraq, and Erbil is near
an active warzone which is not easily accessed by United
States transport vessels.

The absence of federal charges ordinarily settles the
presentment challenge. See Alvarez–Sanchez, 511 U.S. at
358; Abu Ali, 528 F.3d at 226. Because there were no charges
filed until May 11 and the additional delay in extraditing
Defendant is justified, the presentment challenge fails.

Defendant endeavors to escape this conclusion by arguing
that a certain portion of the detention by Kurdish authorities
should be imputed to the United States because the two
countries were engaged in an illicit working arrangement to
undermine Defendant's presentment right. This argument is
not supported by the evidence elicited during the suppression
hearing.

It is well established that federal officials may not collude
with state officers to circumvent federal presentment
requirements. See, e.g., Anderson v. United States, 318 U.S.
350, 356, (1943) (“[T]he fact that the federal officers
themselves were not formally guilty of illegal conduct does
not affect the admissibility of the evidence which they secured
improperly through collaboration with state officers.”). The
Fourth Circuit Court of Appeals has applied this standard in
the context of a working arrangement between foreign and
domestic law enforcement. See Abu Ali, 528 F.3d at 226.
Under this doctrine, the defendant bears the burden of
presenting evidence of an illicit working arrangement. See
Alvarez–Sanchez, 511 U.S. at 359 (“[A] confession obtained
during such a period of detention must be suppressed if the
defendant could demonstrate the existence of improper
collaboration between federal and state or local officers.”)
(emphasis added); see also United States v. Bin Laden, 132
F. Supp. 2d 198, 209 (S.D. N.Y. 2001), affd sub nom. In re
Terrorist Bombings of U.S. Embassies in E. Africa, 552 F.3d
177 (2d Cir. 2008) (“To satisfy their burden, the [d]efendants
must show that the Government made deliberate use of
[foreign] custody to postpone their presentment
requirements.”).

*7 To the Court's knowledge, only two courts have analyzed
the existence of a working arrangement in the context of a
foreign detention. The court in Abu Ali identified the elements
necessary to sustain a “working arrangement” claim: (1) the
foreign government lacked an independent interest in or
independent basis for detaining the defendant; (2) the foreign
government lacked its own interest in interrogating the
defendant; (3) the foreign government “held, or continued to
hold, the defendant so that United States officials could evade
their constitutional duties.” Id. at 227.

Based on this standard, the court in Abu Ali found that the
© 2018 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Khweis, Slip Copy (2017)

facts did not support the existence of a working arrangement
between Saudi Arabian and American authorities to avoid
presentment. Saudi authorities arrested the defendant in 2003
in Medina, Saudi Arabia, on suspicion of involvement in a
terrorist cell. Id. at 224. The Saudi authorities notified the FBI
that they had arrested the defendant but denied the FBI's
request to interview him. Id. at 225. Instead, the Saudi
government undertook interrogations without a probable
cause determination or Miranda warnings to the defendant.
Id. at 226. The defendant made a number of inculpatory
statements during the interrogations. Id. at 225. After
negotiations between the governments, the Saudi authorities
acquiesced to asking six questions provided by the FBI. Id.
Other than consular visits, the United States had no access to
the defendant during this period of Saudi Arabian detention.
Id. The defendant was ultimately indicted by a United States
grand jury in 2005 on terrorism-related offenses, handed over
to United States authorities, repatriated, tried, and found
guilty. Id. at 226. The defendant's statements during his Saudi
Arabian detention were used against him at trial. Id.

The defendant challenged the introduction of this evidence
during trial on, among other grounds, the failure to timely
present him before a magistrate judge. Id. As discussed
above, the court of appeals affirmed the district court's finding
that there was no evidence of an illicit working arrangement
between the United States and Saudi Arabia to bypass
presentment. Id. The court found that the defendant had failed
to challenge the district court's finding that the arrest and
detention was “pursuant to a Saudi government order” based
on Saudi Arabia's “own information and interest in
interrogating the defendant[.]” Id. at 227. The Court also
affirmed the district court's finding of no evidence that the
Saudis “held, or continued to hold [the defendant] so that
United States officials could evade their constitutional
duties.” Id. Accordingly, the court affirmed the district court
and rejected the presentment challenge.

In United States v. Bin Laden, the Southern District of New
York found that there was no improper working arrangement
between Kenyan and American authorities to prevent
presentment for two defendants on terrorism–related charges.
132 F. Supp. 2d at 211. The defendants were detained by
Kenyan authorities and interrogated for twelve days on
suspicion of involvement in bombings in Nairobi. Id. at 203.
Kenyan law permitted their detention for up to fourteen days
after arrest without presentment. Id. at 205. United States
authorities dominated the interrogations, asking the majority
of the questions put to the defendants, though Kenyan law
enforcement was present throughout. Id. at 209. The
American officials apprised the defendants of their Miranda
rights before undertaking the interrogations. Id. at 203. They

also advised one of the defendants that they were not
interested in any prior statements he made to Pakistani
officials before his detention in Kenya. After the twelve-day
interrogation, the United States government charged the
defendants. Id. at 204. Both defendants moved to suppress the
statements made in Kenya on the grounds that the United
States government failed to promptly present them before a
magistrate judge. Id. at 206.

*8 The court found that “early and significant involvement of
the Americans in the investigation of these Defendants makes
this case a closer ‘working arrangement’ call than many
others.” Id. at 209–210. Nevertheless, the court found that the
use of Kenyan interrogation and detention procedures, rather
than FBI practices, evinced Kenyan rather than United States
control of the interrogation. For example: the identification
parade was conducted in conformity with Kenyan law and at
the direction of Kenyan officials; the defendants were not
handcuffed when transported and interrogated; and they were
not fingerprinted until well into the interrogation process. Id.
In addition, the FBI agent in charge of the investigation
testified that American agents did not conduct investigations
independent of the Kenyan authorities and that he believed he
had no authority to make arrests. Id. Finally, the court found
“[t]he assertion that the Americans secretly controlled the
whole investigation is significantly undermined” in part
because one defendant told the FBI agents that he would
admit his involvement in the terrorist acts if he would be tried
in the United States but the FBI made no guarantees about his
extradition. Id. at 210. The court found that “in the midst of
a time-sensitive investigation ... [i]f the American officials
had actually been in control ... they would most likely have
immediately guaranteed an American prosecution.” Id. For
these reasons, the court denied the motion to suppress the
statements made during the Kenyan detention.

Defendant contends that the collaboration between Kurdish
and American officials in this case exceeds the amount in Abu
Ali and Bin Laden and warrants the suppression of his
statements and the fruits thereof. Defendant argues that the
email communications between Agent Connelly and other
United States Government employees exposes the improper
extent of American influence over the Kurdish detention.
While acknowledging that the Government has an interest in
collaborating with foreign countries to collect intelligence,
Defendant contends that the Government's working
arrangement with the Kurds turned illicit near the end of
Connelly's interviews and continuing through the Mirandized
interviews. Defendant argues that, by this time, the
Government no longer had an intelligence interest in
interviewing him, the Kurdish authorities no longer had an
interest in detaining him without prosecution, and the FBI

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Khweis, Slip Copy (2017)

improperly pressured the Kurdish authorities to continue his
detention to further the United States investigation. On
Defendant's reading, the Kurdish government acted as a mere
facilitator of the American investigation whereby the
Government could maximize its investigatory efforts and
delay its compliance with United States law.

employed as opposed to FBI procedures. Fourth, the
detention was a lawful exercise of the power of the foreign
sovereign. These substantial similarities reinforce the Court's
assessment, supra, that Defendant's presentment rights were
not violated. The Court addresses each of these considerations
in turn.

The Government counters that there was no illicit working
arrangement with the Kurdish authorities and this case falls
squarely within the facts and reasoning of Abu Ali and Bin
Laden. The Government represents that it had no role in
Defendant's apprehension by the Kurds and only began its
investigation of Defendant after it learned of the arrest. In
addition, Kurdish authorities were conducting their own
investigation under their own laws and also sought
counter-terrorism intelligence from Defendant. While the
Government acknowledges that it coordinated with Kurdish
authorities to conduct the intelligence-gathering interviews,
this coordination was not an attempt to violate United States
law; it was in furtherance of the FBI's counter-terrorism
mandate. The Government notes that it had to request
permission from Kurdish authorities to see Defendant on each
of the seventeen visits. Further, Kurdish officials controlled
the location, the date, the time of day, and the length of the
visits. None of the FBI's procedures were followed: e.g.
Defendant was transported to interrogation rooms from his
holding cell at CTD Erbil without restraints; Defendant was
not fingerprinted, DNA swabbed, or photographed pursuant
to FBI policy; and Kurdish authorities transferred Defendant
to and from interviews with FBI. The Government also
contends that a Kurdish document signed by the FBI
contemporaneous with the transfer of custody from the Kurds
to the FBI evinces the Kurds' knowledge of the custodial
rights they were relinquishing. Gov. Exh. 28A. The translated
document states that Defendant “was handed over to the
representative of the FBI” on June 8, 2016. Gov. Exh. 28B.
The Government acknowledges that certain emails
demonstrate that United States officials applied pressure on
Kurdish authorities. The Government contends that these
communications, at best, create “mere suspicion or
conjecture” of an improper collusion between the
governments to undermine the defendant's prompt
presentment rights. The Government maintains that Defendant
was at all times lawfully held pursuant to Kurdish law and in
furtherance of potential Kurdish prosecution.

First, Defendant's arrest was initially effected by foreign
authorities with their own interest in Defendant's detention
just as in Abu Ali and Bin Laden. See Abu Ali, 528 F.3d at
224 (“Abu Ali was arrested by the Mabahith” based on
suspected involvement in the al-Faq'asi terrorist cell.); Bin
Laden, 132 F. Supp. 2d at 202 (“Defendant Odeh was
detained by Pakistani immigration authorities .... The basis for
Odeh's detention by Pakistani authorities was his alleged use
of a false passport.”). Specifically, Defendant was detained on
investigation of participation in a terrorist organization and
traveling without proper documentation in violation of
Kurdish and Iraqi law. Hearing Tr. 112:3–8. The United
States was not notified that Defendant was in Kurdish custody
until after the arrest. Hearing Tr. 112:9–23; see Abu Ali, 528
F.3d at 225 (“Following Abu Ali's arrest by the Saudi
authorities, the FBI was notified of his suspected involvement
in the al-Qaeda cell in Saudi Arabia[.]”).

*9 The evidence elicited during the hearings places this case
substantially within the scope of Abu Ali and Bin Laden in
four important respects. First, the arrest was effected by
foreign authorities pursuant to the laws of the foreign nation.
Second, the foreign authorities had an independent basis to
interview the defendant. Third, foreign police practices were

Second, the Kurdish authorities, like the Saudis in Abu Ali,
had their own continued interest in detaining and interrogating
Defendant and interrogated him outside of the presence of the
FBI. Hearing Tr. 141:3–142:20 (describing CTD Official #1's
March 14 interview of Defendant); 184:17–19 (“Q. How
many times after March 15 did you interrogate Mr. Khweis
out of the presence of the U.S. Agents? A. [CTD Official #1]
Maybe five, six times, more or less.”); see Abu Ali, 528 F.3d
at 224 (“Abu Ali was then flown from Medina to Riyadh,
where he was interrogated by the Mabahith.”). While CTD
Official #1 testified that his investigation basically ceased in
mid-April, Hearing Tr. 212:11–13, the evidence shows that
his superiors believed the investigation would be complete
only two weeks after April 28. See Gov. Exh. 69 (“Chancellor
[REDACTED] decided that Khweis will remain in the
custody of CTD for two more weeks ... after that point, since
logical investigation by the [Kurdistan Regional Government]
regarding exigent threats will be complete, he would likely be
transferred[.]”).7 Furthermore, CTD Official #1 expressly
testified that a trial date was not set for Defendant in criminal
court “because the investigation stages had not been
completed yet.” Hearing Tr. 200:14–17. Critically, Connelly
reported in an email to counsel for the Government that he
“was careful not to ask that Khweis be detained solely at our
request, but rather only if Kurdish law permitted it. They
assured me continued detention prior to transfer to the court
was permissible under their law.” Gov. Exh. 69. This answer

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Khweis, Slip Copy (2017)

is consistent with CTD Official #1's testimony that all of the
Kurdish detention was permitted by law. Hearing Tr.
197:7–9. It is also consistent with the fact sheet provided to
Defendant when his detention began. See Gov. Exh. 36.

*10 Third, the investigation was governed by local customs
and procedures. The Kurdish authorities set the date,
duration, and logistics of FBI access to Defendant. See Bin
Laden, 132 F. Supp. 2d at 210 (finding lack of compliance
with FBI procedures probative of the lack of a working
arrangement); Abu Ali, 528 F.3d at 225 (limiting FBI
questioning of defendant). Agent Connelly testified that
Kurdish authorities would end interviews with Defendant
when they saw fit and routinely blocked Connelly's access to
Defendant. See, e.g., Hearing Tr. 302:6–303:13. The
defendant was not restrained when transported by Kurdish
authorities to and from the interview rooms and was not
fingerprinted, DNA swabbed, or photographed as he would be
if interviewed solely in FBI custody. Hearing Tr.
327:9–328:11; see Bin Laden, 132 F. Supp. 2d 198, 210
(“[T]he Court is persuaded of the Kenyans' control of the
investigation by several facts which evidence a departure
from traditional FBI practices [.]”). The fact that the FBI
exerted dominance over the substance of the meetings with
Defendant does not contravene the Kurdish control or warrant
the finding of a working arrangement. Compare Bin Laden,
132 F. Supp. 2d at 209, with Abu Ali, 528 F.3d at 225
(limiting the FBI to submitting six questions to be asked of
the detainee by Saudi authorities).

Fourth, the testimony elicited at the hearing revealed that
Defendant, just like the detainees in Abu Ali and Bin Laden,
was held pursuant to local law until he was handed over to
United States authorities. See Abu Ali, 528 F.3d at 227
(“[A]lthough he disputes the district court's finding that he
was held ‘pursuant to a Saudi government order,’ he offered
no credible evidence that the Saudis held, or continued to
hold, him so that United States officials could evade their
constitutional duties.”); see also Bin Laden, 132 F. Supp. 2d
at 205 (“Odeh was in incommunicado Kenyan custody from
August 14—August 27, 1998. Under Kenyan law, individuals
suspected of a capital offense may be held for fourteen days
after arrest.”).

CTD Official #1 testified that no one can be detained in
Kurdish custody without a court order. Hearing Tr. 97:9–10.
He further testified that because Defendant was brought to the
CTD detention center outside of the regular hours, his boss
notified an investigative court judge over the phone to
approve the detention, and formal paperwork was submitted
the next day. Hearing Tr. 109:20–111:14. The formal

paperwork permitted two weeks of detention after which CTD
Official #1 testified that Defendant was brought before an
investigative judge on March 27. Hearing Tr. 114:7–114:15.
CTD Official #1 testified that the practice required by law
was to send a memo to the investigative judge after each
two-week period of detention;8 the judge reviewed the file and
decided whether to reauthorize continued detention for an
additional two weeks, with detention renewals permitted in
this fashion up to a maximum of six months. Hearing Tr.
120:5–14, 121:10–15; see Gov. Exh. 36 at 2 (“[T]he period
of detention depends on the penalty for the crime. The reality
is that the detention can be open-ended and people can be
detained up to a year without trial.”), id. at 3 (“Before charges
are filed, your period of detention depends on the maximum
possible sentence for the crime. In any event, it should not
exceed 6 months[.]”). CTD Official #1 testified that
reauthorization was obtained on March 29. Hearing Tr.
120:10–14. While CTD Official #1 testified that he could not
recall how many subsequent authorizations were obtained, he
stated that the entire term of detention from March 14 to June
8 was with permission of the court. Hearing Tr. 197:7–9.

The Court finds that CTD Official #1's testimony about
Defendant's detention is credible. CTD Official #1's inability
to provide Kurdish court documents evincing Defendant's
presentation before the Kurdish investigative judge or the
reauthorization of his detention does not undermine CTD
Official #1's credibility as a witness or, in the absence of
evidence to the contrary, call into question the legality of
Defendant's detention. CTD Official #1 provided detailed
information about the presentment process. See, e.g., Hearing
Tr. 114:9–11 (identifying the exact day that Defendant
appeared before a Kurdish investigative judge). Where CTD
Official #1 was unable to provide detailed information, e.g.,
about court records and the full name of the presiding judge,
he explained that Kurdish law prohibited these disclosures.
Hearing Tr. 185:7–22. The Court has no authority to compel
the production of Kurdish court documents and is in no
position to opine on the foreign law prohibiting disclosure.
Furthermore, CTD Official #1 was forthright in his testimony
even though he did not appear to fully understand the
differences between American and Kurdish law. See, e.g.,
Hearing Tr. 210:13–212:5 (explaining CTD Official #1's
confusion about attenuation and Miranda requirements).
Finally, other than Connelly's misstatement about Kurdish
court to which the Defendant would be subjected, which the
Court regards as a misstatement born of Connelly's
unfamiliarity with Kurdish criminal procedure, see supra n.
7, Defendant mustered no evidence contradicting CTD
Official #1's testimony about the detention or the rules
prohibiting him from disclosing Kurdish court documents. For
these reasons, the Court finds CTD Official #1's testimony
credible.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Khweis, Slip Copy (2017)

*11 Taking into consideration the foregoing, Defendant's
presentment challenge fails. Defendant's presentment right did
not attach until he was formally charged by the United States
on May 11, 2016 and the delay of his extradition until June 8,
2016 was reasonable under the circumstances. Furthermore,
there is no factual basis to conclude that the United States
engaged in an illicit working arrangement to deprive
Defendant of his right to prompt presentment. Consequently,
the Court finds that there was no violation of the presentment
requirement which would warrant suppression of Defendant's
statements or the fruits thereof.

B. Voluntariness
Defendant contends that even if his presentment right was not
violated, the statements made to Agents Martinez and
Czekala, and the fruits of those statements, should be
suppressed because they were involuntary.

“[I]n cases involving involuntary confessions, [the Supreme
Court] enforces the strongly felt attitude of our society that
important human values are sacrificed where an agency of the
government, in the course of securing a conviction, wrings a
confession out of an accused against his will.” Schneckloth v.
Bustamonte, 412 U.S. 218, 225 (1973) (citations omitted). “A
statement is involuntary within the meaning of the Due
Process Clause when it is ‘extracted by ... threats or violence’
or ‘obtained by ... direct or implied promises' or ‘the exertion
of ... improper influence.’ ” United States v. Ayesh, 702 F.3d
162, 168 (4th Cir. 2012) (omissions in original) (quoting
Hutto v. Ross, 429 U.S. 28, 30 (1976)). “The test for
determining whether a statement is involuntary under the Due
Process Clause is whether the defendant's will has been
‘overborne’ or his ‘capacity for self-determination critically
impaired’ because of coercive police conduct.”United States
v. Cristobal, 293 F.3d 134, 140 (4th Cir. 2002) (quotations
and citations omitted). “To determine whether a defendant's
will has been overborne or his capacity for self-determination
critically impaired, courts must consider the ‘totality of the
circumstances,’ including the characteristics of the defendant,
the setting of the interview, and the details of the
interrogation.” Id.

Defendant argues that he was particularly susceptible to
coercion and, based on the totality of the circumstances, the
confessions were involuntary. He was held far from home for

more than two months, in a place where he did not speak the
language, and desperately wanted to return home.9 As a result,
Defendant was easy prey for the Government's representations
during interviews that he could only be charged by the United
States, and thereby extradited, after the Government had
gotten all of the information and confirmed that Defendant's
story was consistent. During the suppression hearing,
Defendant sought to elicit testimony that the terms of his
confinement were coercive because he was not able to
regularly access the bathroom, lacked air conditioning in his
cell, and the prison was infested with bugs.

The Government counters that the totality of the
circumstances does not support a finding of coercion. For all
three April 2016 Mirandized interviews, the Government and
Kurdish attendees wore casual clothes and did not visually
display weapons. The interviews were conducted in a well-lit
conference room and the door remained open for the duration
of the interviews. In addition, the Government inquired as to
Defendant's well-being during the interviews, provided him
snacks and cigarettes, and afforded him breaks during the
questioning.

*12 Defendant counters that “a well-lit room, no visible
injuries, drinks, snacks, laughter, and cigarettes—are trivial
compared with the threat of never again returning home,
never again seeing family, and an entirely unknown fate
resting in the hands of captors.” Dkt. No. 118 at 20. In
Defendant's view, these latter concerns were caused by the
Government and created the coercive environment. Defendant
argues that he was not prevented from understanding the
words in the Miranda warnings but that he “would have
signed anything to go home.” Id.

Defendant concedes that the objective circumstances of his
detention “a well-lit room, no visible injuries, drinks, snacks,
laughter, and cigarettes” do not support an involuntariness
argument. Defendant's other allegations about the coercive
effect of his conditions were not supported by the evidence.
CTD Official #1 testified that Defendant was provided private
restroom facilities whereas many defendants were held in
rooms without the same private facilities. Hearing Tr.
133:15–22. He further testified that Defendant was moved to
a different cell because the first cell had air conditioning
issues. Hearing Tr. 132:9–15. Finally, the bug “infestation”
amounted to one cockroach which appeared during an
interview between Defendant and Agent Martinez. Hearing
Tr. 585:16–586:5. No witness testified to any other evidence
of bugs in the prison. Defendant failed to muster any evidence
contrary to this testimony. The evidence of Defendant's
confinement does not support the argument that the testimony

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Khweis, Slip Copy (2017)

was involuntarily coerced.

Defendant's alternative reliance on the fact that he feared he
would never return home and would suffer an unknown fate
in Kurdish custody in no way renders his statements
involuntary. An involuntariness challenge “requir[es] some
sort of ‘state action’ to support a claim[.]” Colorado v.
Connelly, 479 U.S. 157, 165 (1986). Defendant imposed
upon himself the very coercive circumstances which he now
blames on the Government. See United States v. Mashburn,
406 F.3d 303, 310 (4th Cir. 2005) (“Any coercion that
Mashbum may have felt was not the product of official action,
but rather the consequence of the severity of the offenses he
chose to commit.”). Defendant chose of his own accord to sell
his belongings and travel to Syria and Iraq.10 His conduct
strongly suggests that he did not expect to return home to see
his family. While Defendant protests that he had a change of
heart about his desire to return home, the Government cannot
be blamed for Defendant's initial detention in a foreign land,
far removed from family and friends. See United States v.
Wolf, 813 F.2d 970, 975 (9th Cir. 1987) (“There was nothing
exceptional about the duration or location of the questioning
[in Mexico by Mexican authorities], and it certainly is not
unusual for a suspect to have no family or friends present.”).

Connelly's only remaining allegedly coercive acts were
representations that Defendant could not be promised
repatriation to the United States and that he needed to be
truthful in his statements. But “government agents may
validly make some representations to a defendant or may
discuss cooperation without rendering the resulting confession
involuntary.” United States v. Shears, 762 F.2d 397, 401 (4th
Cir. 1985). There was nothing improper about Connelly's
truthful statement that he could not promise extradition. That
decision could only be made by federal prosecutors.
Furthermore, Connelly did not render the interrogation
involuntary by encouraging Defendant to be truthful.

*13 Accordingly, the Court finds that Defendant's oral
statements and written acknowledgment of rights and
authorization to search electronic devices was not the product
of Government coercion.

effectiveness of Miranda warnings.

“Recognizing that the pressure and isolation inherent in
custodial interrogation could overcome the resilience of a
suspect otherwise not inclined to incriminate himself, the
Supreme Court in Miranda ‘conditioned the admissibility at
trial of any custodial confession on warning a suspect of his
rights: failure to give the prescribed warnings and obtain a
waiver of rights before custodial questioning generally
requires exclusion of any statements obtained.’ ” United
States v. Mashburn, 406 F.3d 303, 306 (4th Cir. 2005)
(quoting Missouri v. Seibert, 542 U.S. 600, 608 (plurality
opinion)). While a simple failure to administer Miranda
warnings may not “so taint the investigatory process that a
subsequent voluntary and informed waiver is ineffective”, a
deliberate two-step questioning technique—non-Mirandized
interrogation followed by Mirandized interrogation—may
warrant suppression. Seibert, 542 U.S. at 620 (Kennedy, J.,
concurring) (quoting Oregon v. Elstad, 470 U.S. 298
(1985)).11 “If that strategy is deliberately employed,
postwarning statements related to the substance of prewarning
statements must be excluded unless curative measures are
taken before the postwarning statements are made.”
Mashburn, 406 F.3d at 309. “Curative measures should be
designed to ensure that a reasonable person in the suspect's
situation would understand the import and effect of the
Miranda warning and of the Miranda waiver. For example, a
substantial break in time and circumstances between the
prewarning statement and the Miranda warning ...
[a]lternatively, an additional warning that explains the likely
inadmissibility of the prewarning custodial statement may be
sufficient.” Seibert, 542 U.S. at 622 (Kennedy, J.,
concurring).

Defendant argues that the Miranda warnings in this case were
undermined by the use of a two-step interview process
consisting of intentionally non-Mirandized interviews to set
up Defendant to confess in subsequent Mirandized interviews.
Defendant points to electronic communications between
Connelly and other Government agents which suggest that a
purpose of the non-Mirandized interviews was lining up
Defendant's story for the subsequent Mirandized interviews.
Defendant also contends that the delay between the two sets
of interviews aggravated, rather than attenuated, his sense of
isolation and desire to make inculpatory statements in order
to secure return to the United States.

C. Miranda Violation
Defendant also contends that the inculpatory statements, and
the fruits thereof, should be suppressed because they were
obtained through a direct attempt to undermine the

The Government does not dispute that Defendant was subject
to two phases of interviews—before and after he was apprised
of his Miranda rights. However, the Government argues that

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Khweis, Slip Copy (2017)

the two-step interview process was not deliberately used to
undermine the Miranda warning. Rather, it was used to
demarcate the intelligence-gathering efforts of the FBI from
the subsequent, Mirandized criminal-investigation efforts. In
addition, the Government contends that even if the process
risked undermining the warnings, the Government took
sufficient steps to attenuate any possible adverse impacts.
Those curative steps included: a ten day attenuation period
between the two sets of interviews; no overlap in Kurdish or
American participants in the interviews; the relocation of the
Mirandized interrogations to a different interview room in the
Erbil CTD detention center; and the Government expressly
advised Defendant during the Miranda warnings that they
were not interested in the substance of his prior statements.

*14 The evidence presented in the hearing establishes that the
FBI did not engage in an intentional scheme to undermine the
effectiveness of subsequent Miranda warnings. The decision
to not Mirandize Defendant before the first interview was
driven by intelligencegathering needs, Connelly's later
braggadocio about the success of the interviews did not
overturn the original justification or affect the later
Mirandized interviews, and Connelly had good reason to
continue interviewing Defendant even after obtaining
substantial intelligence. The Court explores these issues in
detail below.

The FBI learned that a United States citizen was arrested on
suspicion of terrorism, in an active war zone, near
ISIS-controlled territory. These facts present unique
intelligence opportunities for the United States. Connelly
acknowledged during the hearing that there were risks to not
Mirandizing Defendant before beginning interviews but that
he had to make a split-second decision. Hearing Tr. 274:4–18.
Connelly noted that at the time he believed he might only
have limited access to Defendant because he was in Kurdish
custody.12 Hearing Tr. 273:17–23. Connelly also expressed
concern that Defendant had traveled from the United States to
Iraq without U.S. detection, possibly through the use of a
hitherto unknown facilitation network. Hearing Tr.
274:15–21. Connelly testified that he did not take the decision
to undertake un-Mirandized interviews lightly. He
acknowledged that there was substantial risk in his approach
that the inadmissibility of the information he obtained,
coupled with the limited access to Defendant, might scupper
any subsequent prosecution. Agent Connelly balanced future
criminal prosecution against the need for intelligence dictated
the interrogation strategy and determined that the latter was
a higher priority. This subjective intent is highly probative of
whether Miranda was intentionally undermined. See United
States v. Moore, 670 F.3d 222, 230 (2d Cir. 2012) (“There is
no subjective evidence of intent here—no testimony, for

example, by any officer of an intent to use a two-step
technique, nor any evidence that such intent was reflected in
a police report.”); United States v. Thomas, 664 F.3d 217,
223 (8th Cir. 2011) (“[T]he district court credited Grunder's
testimony that he did not believe he had probable cause to
arrest Thomas at the time law enforcement arrived at the
house ... Grunder asked questions to establish probable cause,
not to circumvent Miranda warnings.”).

Connelly's subsequent emails about how he “tee'd up”
Defendant, “obliterate[d] his lies”, and “lined him up” for the
clean team do not disturb this conclusion. Connelly testified
that he sent the aforementioned emails to other members of
the FBI intelligence team—not the Mirandizing team.
Hearing Tr. 341:1–345:11. Similarly, Connelly never shared
the reports of his intelligence-gathering interviews with the
Mirandizing team. The absence of any shared personnel,
information, or impressions of the interviewee between the
first and second interview teams substantially undermines the
claim of a coordinated effort to circumvent Miranda. See
Missouri v. Seibert, 542 U.S. at 621 (Kennedy, J., concurring)
(finding a Miranda violation where the same officer
conducted both sets of interrogations and “relied on the
defendant's prewarning statement to obtain the postwaming
statement used against her at trial”); see also United States v.
Sweets, 526 F.3d 122, 130 (4th Cir. 2007) (finding no
Miranda violation where “Detective Glenn, who had not been
involved in the earlier process of finding and arresting
[defendant]” conducted the Mirandized interview); United
States v. Capers, 627 F.3d 470, 477 (2d Cir. 2010)
(recognizing the rule that the police have not engaged in a
deliberate two-step to circumvent Miranda “where different
officers questioned the suspect at different locations ... and
the second officer was not aware of the suspect's previous
inculpatory statement”).

*15 Finally, Connelly testified that his statements about teeing
up Defendant and that Defendant was lined up for the clean
team were his assessments of Defendant's present truthfulness
rather than statements of intent about the purpose of the
un-Mirandized interviews. Hearing Tr. 378:13–379:21. The
Court is convinced that Connelly had reason to doubt
Defendant's credibility because of the numerous times that
Defendant revised his story during the interviews. Taking into
consideration the course of Defendant's interrogation,
Connelly and the Department of Defense's persistent
interviewing to be sure that Defendant's story was consistent
and truthful is a sign of careful tradecraft, not malicious
intent.

Because Miranda was not deliberately undermined, the

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Khweis, Slip Copy (2017)

“subsequent administration of Miranda warnings should
suffice to remove the conditions that precluded admission of
the earlier statement.” Oregon v. Elstad, 470 U.S. 298, 314
(1985). Special Agents Martinez and Czekala provided
Defendant a Miranda warning orally and in writing before
each of the interviews conducted in Erbil on April 20, 21, and
23. Hearing Tr. 522:3–4. The Agents also advised Defendant
that his parents had retained a United States-based attorney on
his behalf. Hearing Tr. 522:5–17. The Agents also explained
that their appearance was independent of any earlier
investigation by the FBI or Kurdish authorities and they
reviewed an advice of rights/Miranda form with Defendant
which stated the same. Hearing Tr. 522:20–524:24.
Defendant signed the form before each of the three
interviews. Gov. Exh. 46–48. In light of Agents Martinez and
Czekala's extensive warnings “the finder of fact may
reasonably conclude that the suspect made a rational and
intelligent choice whether to waive or invoke his rights.”
Elstad, 470 U.S. at 314. Consequently, the Court finds that
there has been no violation of the Fifth Amendment right
against self-incrimination and suppression is not warranted.

D. Suppression of the June 8 Interview
During the hearing, Defendant argued for the first time that
the June 8 interview conducted on a military transport plane
en route to the United States was improperly undertaken and
his statements during the flight should be suppressed.
Specifically, Defendant notes that by June 8, the Government
was aware that Defendant had been formally charged and that
his counsel had advised the Government not to interrogate
him anymore.

The parties filed supplemental briefing to address this issue.
In their briefing, the Government counters that the June 8
interview was proper and Defendant's argument is squarely
foreclosed by Moran v. Burbine, 475 U.S. 412 (1986).

In Moran, the defendant's sister obtained legal assistance for
her brother while he was detained by the police. Id. at 416.
The retained counsel contacted the police and advised that his
client should not be interviewed further. Id. At no point was
the defendant aware that his sister had obtained representation
for him. Id. The Supreme Court held that the police's failure
to inform the defendant of his attorney's telephone call did not
deprive him of information essential to his ability to
knowingly waive his Miranda rights. Id. at 421–22.
Furthermore, the Court held that the police did not violate

respondent's Sixth Amendment right to counsel. Id. at
428–29. That right had not attached because the challenged
police conduct occurred prior to respondent's arraignment. Id.

Defendant counters that Moran should not be applied to the
unique facts of this case. Specifically, Defendant contends
that the delays in notifying Defendant of his available counsel
“appears too convenient to be coincidental” and that the
Government was able to unilaterally prohibit Defendant's
counsel from reaching him. Dkt. No. 138. at 3–4.

*16 This case falls squarely within the facts and reasoning in
Moran. The Government was not obliged to pass on Defense
counsel's message to his client. Even without this information,
Defendant was capable of and did waive his right to remain
silent or consult with an attorney before the June 8 interview.
See Moran, 475 U.S. at 421–22. The Supreme Court has
“never read the Constitution to require that the police supply
a suspect with a flow of information to help him calibrate his
self-interest in deciding whether to speak or stand by his
rights” and the police in Moran did not even tell the
defendant that counsel had been retained on his behalf.
Moran, 475 U.S. at 422. Here, the FBI agents on the flight
advised Defendant that a United States-based lawyer had been
retained on his behalf. The additional information provided to
Defendant is the only substantial difference between the case
at bar and Moran and it only strengthens the finding that the
right was voluntarily waived.

For these reasons, the Court concludes that Defendant
voluntarily waived his right to remain silent and to speak with
counsel during the June 8 hearing.

IV. Conclusion
For the foregoing reasons, the Court DENIES Defendant's
Motion.

All Citations
Slip Copy, 2017 WL 2385355

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Khweis, Slip Copy (2017)

Footnotes

1

“Motions to suppress fall into the class of issues that are decided by the court and not the jury” and “[i]n the course of deciding a
motion to suppress, the district court may make findings of fact.” United States v. Stevenson, 396 F.3d 538, 541 (4th Cir. 2005).

2

The Kurdistan Region Security Council publicized Defendant's detainment in Erbil two days after his arrest. The Council released
a statement over social media on March 16 announcing that Defendant is in the Kurdistan Region being questioned by relevant
security authorities and was being provided the care afforded to him under international and local law. The Defendant was also
interviewed at the detention center by a Kurdish news channel on March 17. The statement and the interview noted that Defendant
was apprehended attempting to enter Kurdistan from the ISIS stronghold of Mosul, Iraq. The publications further noted that
Defendant was accompanied in his travels through Turkey and Syria by an unnamed Iraqi woman.

3

CTD Official #l's name has been redacted in compliance with the Classified Information Procedures Act.

4

CTD Official #1 testified that Defendant was detained on two offenses: participating in a terrorist organization (a violation of Kurdish
law) and traveling in the region without adequate documentation (a violation of Iraqi law).

5

This specific advice is not reflected on the “advice of rights” form. The form does state that “an American-trained attorney is available
to you. However, our ability to provide you access to him may be limited by the decisions of the local authorities.” Gov. Exh. 53.

6

The translation of the Kurdish document lists the date of transfer as June 8, 2016. However, the same date is translated from the
Kurdish elsewhere as June 7, 2016. Compare Gov. Exh. 27A, B. The difference of a day is immaterial to the Court's finding so the
Court relies on the parties' representation that the handover occurred on June 8.

7

Connelly goes on to state that Defendant “would likely be transferred to the Investigative Court.” Gov. Exh. 69. This statement is
facially inconsistent with CTD Official #1's testimony that Defendant had already been presented to the Investigative Court but would
subsequently be presented to the Criminal Court. The Defendant reads this as an error evincing that Defendant was never presented
to any Kurdish court. But a more plausible explanation is that Connelly misstated the name of the court out of unfamiliarity with the
intricacies of the Kurdish court system. See, e.g., Hearing Tr. 409:8–10 (“So when they say court to me, I know there is like an there
is [sic] Investigative Court, there is a Criminal Court. So I am not versed in their system.”).

8

CTD Official #1 later clarified on cross-examination that “[i]t's 15 days. Sometimes it's 12 or 13 depending upon what day of the
week or the weekends it falls on. But it can't be more than 15, but it could be 15, 13, or 12.” Hearing Tr. 196:14–16.

9

The Defendant also alleges that the International Red Cross had expressed concern about unsafe conditions and abusive practices
in Iraqi and Kurdish prisons. Whatever the veracity of these accusations, Defendant advised the Government and the State Department
Consular Office that he was not abused and the Government contemporaneously remarked that Defendant was in good spirits during
interviews.

10

The Court makes no factual findings as to Defendant's entry into Iraq. Whether Defendant made this trip in the company of a woman
with family in Mosul, Iraq, see Gov. Exh. 31 (describing these events to a Kurdish TV station) or because he was seeking to join ISIS
in Syria and was ultimately transferred to Iraq for training, his presence in Iraq is a product of his decisions and not those of any
government involved in his interrogation.

11

The Seibert decision divided the Supreme Court and Kennedy's concurrence in the judgment represents the holding of the Court.
Mashburn, 406 F.3d at 309.

12

The facts bear out this concern. The Kurdish authorities rebuffed Connelly's initial interview request, subsequently limited Connelly
to only an hour-long interview of Defendant, and only after receiving actionable intelligence did the Kurdish authorities permit
Connelly to continue his interrogations at their discretion.

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

13

